U.S. Department of Justice
Office of the Solicitor General
Washington, D. C. 20530

November 26, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jimmie Eugene White, II v. United States of America,
S.CtNo. 19-587

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 1,
2019, and placed on the docket on November 5, 2019. The government's response is due on
December 5, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 6, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0587
WHITE, JIMMIE EUGENE, II
USA

JOHN P. ELWOOD
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-942-5000
JOHN.ELWOOD@ARNOLDPORTER.COM
JEREMY C. MARWELL
VINSON & ELKINS LLP
2200 PENN. AVE., NW
SUITE 500 WEST
WASHINGTON, DC 20037
202-639-6507
KENNETH P. TABLEMAN
KENNETH P. TABLEMAN, P.C.
161 OTTAWA AVENUE, NW
SUITE 404
GRAND RAPIDS, MI 49503-2701
616-233-0455
TABLEMANK@SBCGLOBAL.NET

